Office of Material Loss Reviews
Report No. MLR-11-003


Material Loss Review of City Bank,
Lynnwood, Washington




                                  November 2010
                                     Executive Summary

                                     Material Loss Review of City Bank,
                                     Lynnwood, Washington
                                                                                     Report No. MLR-11-003
                                                                                            November 2010

Why We Did The Audit
On April 16, 2010, the Washington State Department of Financial Institutions (DFI) closed City Bank,
Lynnwood, Washington and named the FDIC as receiver. On May 14, 2010, the FDIC notified the Office
of Inspector General (OIG) that City Bank’s total assets at closing were $964 million and the estimated
loss to the Deposit Insurance Fund (DIF) was $321 million. As of September 30, 2010, the estimated loss
to the DIF had decreased to $271 million. As required by section 38(k) of the Federal Deposit Insurance
Act (FDI Act), as amended by the Dodd-Frank Wall Street Reform and Consumer Protection Act, the
OIG conducted a material loss review of the failure of City Bank.

The audit objectives were to (1) determine the causes of City Bank’s failure and the resulting material
loss to the DIF and (2) evaluate the FDIC’s supervision of the institution, including implementation of the
Prompt Corrective Action (PCA) provisions of section 38.


Background
City Bank was a state-chartered nonmember bank insured by the FDIC on April 15, 1974, and
headquartered in Lynnwood, Washington, which is 14 miles north of downtown Seattle, Washington.
Nearly 88 percent of the bank’s total deposits were held in Snohomish County, where the main office was
located. City Bank pursued a community banking business plan that was centered on commercial real
estate (CRE) and, in particular, acquisition, development, and construction (ADC). City Bank had no
holding company and was publically traded. The largest shareholder was the managing officer of the
bank since its formation. This individual served as the Chief Executive Officer and Chairman of the
Board and was a dominant influence behind the bank’s business strategy.


Audit Results

Causes of Failure and Material Loss

City Bank’s failure can be attributed to the Board and management’s high-risk strategy that centered on
increasing levels of ADC lending, funded through non-core deposits, in pursuit of higher earnings. The
bank’s lending strategy had historically been profitable and the bank maintained higher levels of capital to
mitigate risk associated with its strategy. However, as the bank’s risk profile increased, the Board and
management failed to implement prudent risk management practices necessary to monitor and manage the
bank’s loan portfolio. In addition, the Board and management repeatedly disregarded key regulations
related to appraisals and loan-to-value requirements. Collectively, these factors heightened the bank’s
risk profile and the bank’s vulnerability to adverse economic conditions, which led to significant loan-
related losses, poor earnings, and the erosion of the bank’s capital when market conditions deteriorated.
DFI closed the bank on April 16, 2010.

The FDIC’s Supervision of City Bank

Our review focused on FDIC and DFI supervisory oversight of City Bank between 2006 and 2010. The
FDIC and DFI conducted timely and regular examinations of City Bank, as required. City Bank was also
subjected to periodic offsite monitoring. Prior to 2008, the FDIC and DFI consistently concluded that the


                                 To view the full report, go to www.fdicig.gov
   Executive Summary
                                      Material Loss Review of City Bank,
                                      Lynnwood Washington
                                                                                      Report No. MLR-11-003
                                                                                             November 2010

bank’s ADC risk exposure was mitigated by strong Board and management oversight, strong earnings,
and significant capital. Further, although examiners identified various risk management practices that
needed to be strengthened, examiners did not consider identified weaknesses to be significant in light of
the bank’s sound financial condition and capital levels. Accordingly, neither the FDIC nor DFI
considered City Bank to be a cause for supervisory concern even when the economy began to weaken in
2007.

However, the level of supervisory concern changed dramatically in 2008 when the bank’s ADC
concentrations, combined with deficient risk management practices and a downturn in the real estate
market, resulted in a dramatic rise in delinquent and nonperforming assets and significant deterioration in
the bank’s overall condition. Based on the 2008 examination findings, the FDIC and the DFI acted
aggressively to downgrade the bank’s composite and component ratings, issue a formal supervisory
enforcement action, and closely monitor City Bank’s condition. However, despite the increased
supervisory attention following that examination and City Bank’s efforts to address deficiencies, the
condition of the bank continued to decline and became critically deficient.

A lesson learned with respect to ADC concentrations is that early supervisory intervention is prudent,
even when an institution has significant capital and few classified assets. In hindsight, a more forward-
looking assessment of City Bank’s risk profile would likely have resulted in earlier downgrades and
possibly led to the issuance of an informal enforcement action in 2007. Such an approach would have
reinforced supervisory expectations, increased supervisory oversight, and required the Board to commit to
a plan and a timeline for implementing corrective actions before the deterioration of economic conditions
made corrective action more difficult to achieve.

The FDIC has taken a number of actions to increase supervisory attention to banks that have risk profiles
similar to City Bank, including instituting a training initiative on forward-looking supervision and issuing
additional supervisory guidance on CRE and ADC concentrations, appraisals, and funds management.

Management Response

After we issued our draft report, management provided additional information for our consideration, and
we revised our report to reflect this information, as appropriate. On November 12, 2010, the Director,
Division of Supervision and Consumer Protection (DSC), provided a written response to the draft report.
DSC reiterated the OIG’s conclusions regarding the causes of City Bank’s failure. With regard to our
assessment of the FDIC’s supervision of City Bank, DSC’s response discussed the number of
examinations conducted between 2006 and 2010 described in our report. Further, DSC’s response
reiterated that City Bank’s loan portfolio had deteriorated to a level that raised significant supervisory
concern at the December 2008 joint examination, resulting in a composite “5” rating and the issuance of a
Cease and Desist Order in June 2009. In the February 2010 examination, the FDIC and DFI determined
that City Bank was no longer viable without an immediate capital infusion, which failed to materialize.
DSC also indicated that it recognizes strong supervisory attention is necessary for institutions with high
CRE and ADC concentrations, such as City Bank, and referenced guidance that the Division has issued to
remind examiners to take appropriate action when risks associated with those concentrations are
imprudently management. DSC also stated that supervisory guidance has been issued to financial
institutions to re-emphasize the importance of robust credit risk-management practices for institutions
with concentrated CRE exposures.




                                  To view the full report, go to www.fdicig.gov
                                Contents
                                                                       Page
Background                                                               2

Causes of Failure and Material Loss                                      2
  Board and Management’s High-Risk Strategy                              3
  Risk Management Practices                                              7

The FDIC’s Supervision of City Bank                                     10
   Supervisory History                                                  11
   Supervisory Response to Key Risks                                    12
   Supervisory Lessons Learned                                          15
   Implementation of PCA                                                16

Corporation Comments                                                    18

Appendices
  1. Objectives, Scope, and Methodology                                 19
  2. Glossary of Terms                                                  22
  3. Acronyms                                                           26
  4. Corporation Comments                                               28

Tables
   1. Financial Information for City Bank, 2005 to 2009                  2
   2. Examination History of City Bank, 2006 to 2010                    11
   3. City Bank’s Total Risk-Based Capital Ratio to Peer Group, 2005    13
      to 2009
   4. City Bank’s Capital Levels Relative to PCA Thresholds for Well    17
      Capitalized Institutions

Figures
   1. City Bank’s ADC Loan Concentrations Compared to Peer Group         3
   2. City Bank’s Net Non-Core Funding Dependence Ratio, 2004 to         7
      2009
Federal Deposit Insurance Corporation                                                Office of Material Loss Reviews
3501 Fairfax Drive, Arlington, Virginia 22226                                             Office of Inspector General


DATE:                                           November 12, 2010

MEMORANDUM TO:                                  Sandra L. Thompson, Director
                                                Division of Supervision and Consumer Protection

                                                /Signed/
FROM:                                           Stephen M. Beard
                                                Assistant Inspector General for Material Loss Reviews

SUBJECT:                                        Material Loss Review of City Bank, Lynnwood, Washington
                                                (Report No. MLR-11-003)


As required by section 38(k) of the Federal Deposit Insurance (FDI) Act, and as amended
by the Dodd-Frank Wall Street Reform and Consumer Protection Act (Financial Reform
Act), the Office of Inspector General (OIG) conducted a material loss review (MLR) of
the failure of City Bank, Lynnwood, Washington. The Washington State Department of
Financial Institutions (DFI) closed the institution on April 16, 2010, and named the FDIC
as receiver. On May 14, 2010, the FDIC notified the OIG that City Bank’s total assets at
closing were $964 million and the estimated loss to the Deposit Insurance Fund (DIF)
was $321 million. As of September 30, 2010, the estimated loss to the DIF had
decreased to $271 million. The estimated loss exceeds the $200 million MLR threshold
for losses occurring between January 1, 2010 and December 31, 2011, as established by
the Financial Reform Act.

When the DIF incurs a material loss with respect to an insured depository institution for
which the FDIC is appointed receiver, the FDI Act states that the Inspector General of the
appropriate federal banking agency shall make a written report to that agency. The report
is to consist of a review of the agency’s supervision of the institution, including the
agency’s implementation of FDI Act section 38, Prompt Corrective Action (PCA); a
determination as to why the institution’s problems resulted in a material loss to the DIF;
and recommendations to prevent future losses.

The objectives of this material loss review were to (1) determine the causes of City
Bank’s failure and the resulting material loss to the DIF and (2) evaluate the FDIC’s
supervision of City Bank, including the FDIC’s implementation of the PCA provisions of
section 38 of the FDI Act. This report presents our analysis of City Bank’s failure and
the FDIC’s efforts to ensure that the Board of Directors (Board) and management
operated the institution in a safe and sound manner. The report does not contain formal
recommendations. Instead, as major causes, trends, and common characteristics of
institution failures are identified in our material loss reviews, we will communicate those
to FDIC management for its consideration. As resources allow, we may also conduct
more comprehensive reviews of specific aspects of the FDIC’s supervision program and
make recommendations as warranted.1 Appendix 1 contains details on our objectives,
scope, and methodology. We also include several other appendices to this report.
Appendix 2 contains a glossary of key terms; including material loss, the FDIC’s
supervision program, and the Uniform Financial Institutions Rating System, otherwise
known as the CAMELS ratings. Appendix 3 contains a list of acronyms. Appendix 4
contains the Corporation’s comments on this report.


Background
City Bank was a state-chartered nonmember bank insured by the FDIC on April 15, 1974,
and headquartered in Lynnwood, Washington, which is 14 miles north of downtown
Seattle, Washington. Nearly 88 percent of the bank’s total deposits were held in
Snohomish County where the main office was located. City Bank pursued a community
banking business plan that was centered on commercial real estate (CRE) and, in
particular, acquisition, development, and construction (ADC). City Bank had no holding
company and was publically traded. The largest shareholder was the managing officer of
the bank since its formation. This individual served as the Chief Executive Officer
(CEO) and Chairman of the Board and was a dominant influence behind the bank’s
business strategy. Table 1 provides details on City Bank’s financial condition as of
December 2009 and for the 4 preceding calendar years.

Table 1: Financial Information for City Bank, 2005 to 2009
    Financial Measure
          ($000)                Dec 2009       Dec 2008        Dec 2007       Dec 2006       Dec 2005
Total Assets                    1,129,154       1,325,541 1,239,032            1,077,689        832,039
Total Loans                       596,306       1,071,270 1,161,755              970,237        749,486
Total Deposits                  1,020,494       1,088,091   864,489              763,486        510,863
Brokered Deposits                 351,747         604,235   297,734              211,340         57,862
FHLB Borrowings                    65,000          85,000   130,400               90,400        101,191
Net Income (Loss)               (119,500)        (60,843)    41,495               37,000         51,478
Source: Uniform Bank Performance Reports (UPBR) for City Bank.



Causes of Failure and Material Loss
City Bank’s failure can be attributed to the Board and management’s high-risk strategy
that centered on increasing levels of ADC lending, funded through non-core deposits, in
pursuit of higher earnings. The bank’s lending strategy had historically been profitable
and the bank maintained higher levels of capital to mitigate risk associated with its
strategy. However, as the bank’s risk profile increased, the Board and management failed
to implement prudent risk management practices necessary to monitor and manage the

1
 A further discussion of OIG-related coverage of financial institution failures can be found in the
Objectives, Scope, and Methodology section of our report.

                                                      2
bank’s loan portfolio. In addition, the Board and management repeatedly disregarded key
regulations related to appraisals and loan-to-value requirements. Collectively, these
factors heightened the bank’s risk profile and the bank’s vulnerability to adverse
economic conditions, which led to significant loan-related losses, poor earnings, and the
erosion of the bank’s capital when market conditions deteriorated. DFI closed the bank
on April 16, 2010.

Board and Management’s High-Risk Strategy

The Board and management, largely influenced by the bank’s CEO and Chairman,
carried out a high-risk lending and funding strategy that, coupled with a weakened real
estate market, caused the bank’s financial condition to deteriorate.

Lending Strategy

City Bank had always carried a large concentration in ADC loans, focusing on single-
family residential development and construction lending. Historically, the bank
experienced relatively nominal losses even during prior economic downturns. However,
from December 2005 to December 2008, the bank grew almost 60 percent, and that
growth was principally focused in ADC lending. This strategy increased the risk profile
of the bank. Figure 1 illustrates that City Bank’s ADC concentrations compared to Total
Capital were well above the bank’s peer group.2

Figure 1: City Bank’s ADC Loan Concentrations Compared to Peer Group

                                      800%

                                      700%             City Bank                                  689%
         ADC Loans to Total Capital




                                                       Peer
                                      600%

                                      500%

                                                                                        421%
                                      400%
                                                                              391%
                                                               329%
                                      300%
                                                233%
                                      200%                    136%           147%       139%

                                      100%      104%                                              97%

                                       0%
                                             2005          2006            2007      2008      2009
                                                                      Year Ended

Source: UBPRs for City Bank.



2
    City Bank’s peer group included insured commercial banks with assets between $1 billion and $3 billion.

                                                                       3
Indeed, the Board and management intentionally sought higher than normal
concentrations of CRE and ADC loans, confident that their experience and knowledge of
the Seattle market would lead to maximum returns. From the Board and management’s
perspective, their record of strong earnings supported the soundness of their longstanding
lending strategy, and maintenance of significant capital levels provided a cushion for the
associated risks. As discussed later in this report, City Bank maintained capital levels
that were significantly above peer and, for many years, City Bank’s capital levels were in
the top 10 percent of commercial banks nationwide. Further, the bank viewed the fact
that many of its ADC loans were to established residential developers in the Seattle area,
who were longtime customers, as a risk mitigation factor. Examiners consistently
acknowledged that management was experienced and knowledgeable of the Seattle real
estate market but also cautioned the bank about its increasing risk profile and the need to
strengthen risk management practices.

In December 2006, federal banking regulatory agencies issued guidance, entitled,
Concentrations in Commercial Real Estate Lending, Sound Risk Management Practices
(Joint Guidance) that reinforces existing regulations and guidelines for real estate lending
and safety and soundness.3 The guidance was issued because the agencies had observed
that CRE concentrations had been rising and could create safety and soundness concerns
in the event of a significant downturn. Due to the risks associated with CRE and ADC
lending, regulators consider institutions with significant CRE and ADC concentrations to
be of greater supervisory concern. The Joint Guidance defines institutions with
significant CRE concentrations as those reporting loans for construction, land and
development, and other land (i.e., ADC) representing 100 percent or more of total capital;
or institutions reporting total CRE loans representing 300 percent or more of total capital,
where the outstanding balance of CRE has increased by 50 percent or more during the
prior 36 months. City Bank’s ADC concentrations were well in excess of thresholds
warranting supervisory concern.

Further, the Joint Guidance states that rising CRE concentrations can expose institutions
to unanticipated earnings and capital volatility in the event of adverse changes in the
general CRE market. Earlier supervisory guidance emphasized that ADC lending is a
highly specialized field with inherent risks that must be managed and controlled to ensure
that this activity remains profitable.4 Supervisory guidance also states that an
institution’s Board is responsible for establishing appropriate risk limits, monitoring
exposure, and evaluating the effectiveness of the institution’s efforts to manage and
control risk.

City Bank’s business strategy led to high profitability through 2007 in comparison to its
peer group. Specifically, based on June 2007 financial data, City Bank’s Return on
Average Assets (ROA) was 3.81 percent, which was well above the peer group average
of 1.17 percent. By 2008, however, the bank’s ROA had dropped to .42 percent as a

3
  The guidance was issued jointly by the Office of the Comptroller of the Currency, the Board of Governors
of the Federal Reserve System, and the FDIC (collectively referred to as the agencies in the guidance).
4
  Financial Institution Letter (FIL)-110-98, entitled, Internal and Regulatory Guidelines for Managing
Risks Associated with Acquisition, Development, and Construction Lending, dated October 8, 1998.

                                                    4
result of the downturn in the economy. The substantial drop in earnings was associated
with an increased loan loss provision and a high volume of nonearning assets. The
nonearning assets also adversely affected future earnings and rapidly dissipated capital
levels.

FDIC officials stated that the State of Washington real estate market began to experience
dramatic deterioration in 2008. According to DFI officials, raw land and development
values decreased 30 to 40 percent and, in some cases, as much as 50 to 60 percent.
Snohomish County, where City Bank had significant exposure, was one of the hardest hit
in terms of devaluation. Accordingly, as discussed in the 2008 examination report, the
deterioration in the real estate market coupled with City Bank’s significant concentration
in ADC loans, resulted in the precipitous rise in delinquent and nonperforming assets and
predisposed City Bank’s asset quality to further deterioration given the economic climate.
Additionally, examiners noted in 2008 that the bank was slow to respond to the changing
economic conditions and questioned the bank’s decision to originate new ADC loans and
make new loan advances to borrowers who had loans that were already internally
classified as Substandard in the last two quarters of 2008, despite a rapidly deteriorating
real estate market.

The increase in nonperforming loans in City Bank’s ADC loan portfolio resulted in
substantial increases to adversely classified assets by the fourth quarter of 2008. The
majority of City Bank’s adversely classified loans were ADC loans that financed
speculative residential construction and land development projects. City Bank’s
Adversely Classified Items Coverage Ratio increased from 8 percent to approximately
343 percent from June 30, 2007 to September 30, 2008. This ratio is a measure of the
asset risk and the ability of capital to protect against that risk. A lower ratio is desirable
because a higher ratio indicates exposure to poor quality assets and less ability for the
bank’s capital to absorb any losses associated with those assets. By December 31, 2009,
the bank’s Adversely Classified Items Coverage ratio had increased to around 976
percent.5

In response to the 2008 examination report, the bank stated that despite always
maintaining a very high level of capital as a shock absorber for an economic downturn, it
was not fully prepared for the severity of the decline in the overall economy and the
related real estate values. City Bank outlined the steps it was taking to address the
deterioration of the bank, including executing a strategy to, among other things, reduce
nonperforming assets and the bank’s overall risk profile by reducing the levels of real
estate construction lending and brokered deposits.

In 2009, bank management was able to considerably reduce the inventory of homes and
lots in its loan and other real estate owned (OREO) portfolio. City Bank’s strategy for
overall problem asset resolution was to gain control of properties from problem
borrowers and engage home builders to construct speculative single family homes on
bank-owned lots on a fee basis and then sell the completed homes. Management

5
 The increase in risk exposure from ADC loans in December 2009 was due primarily to the decline in the
bank’s capital level.

                                                   5
implemented its “Fee Builder Program” to maximize the potential sale of assets thinking
that finished homes were more likely to sell than vacant land. However, examiners
concluded this strategy was essentially real estate speculation more indicative of a builder
than a bank and cited the bank for an apparent violation of Section 24, Activities of
Insured State Banks, of the FDI Act, which prohibits any state bank from engaging as
principal in any activity not permissible for national banks unless: (a) the FDIC
determines that the activity poses no significant risk to the insurance fund; and (b) the
bank is in compliance with applicable capital standards.

Funding Strategy

To fund its ADC growth strategy, City Bank increased its reliance on non-core funding
sources, including jumbo certificates of deposit, FHLB borrowings, and brokered
deposits beginning in 2005. Management considered this type of funding to be less
expensive. The 2008 examination report stated the bank’s non-core funding levels had
increased to imprudent levels. Further, the bank’s excessive reliance on brokered
deposits combined with poor asset quality and the absence of off-balance sheet funding
sources was threatening the bank’s viability. Although management took action to
reduce its reliance on brokered deposits and the bank’s liquidity remained sufficient for
its short-term needs, the poor condition of the bank exposed the bank’s ability to retain or
replace maturing deposits. As discussed in more detail in the PCA section of the report,
the FDIC issued a letter in January 2009 advising the bank not to accept, renew, or roll
over any brokered deposits. Then, in June 2009, the bank was officially prohibited from
doing so as a result of the Cease and Desist Order (C&D) without a brokered deposit
waiver.

The FDIC Risk Management Manual of Examination Policies (Examination Manual)
states that the non-core funding dependence ratio is a key measure of the degree to which
the bank relies on potentially volatile liabilities, such as, but not limited to, certificates of
deposit over $100,000 and brokered deposits to fund long-term earning assets.
Generally, the lower the ratio, the less risk exposure there is for the bank, whereas higher
ratios reflect reliance on funding sources that may not be available in times of financial
stress or adverse changes in market conditions. Figure 2 illustrates City Bank’s net non-
core funding dependence ratio compared to its peer group, from 2004 to 2009.




                                                6
Figure 2: City Bank’s Net Non-Core Funding Dependence Ratio, 2004 to 2009


                                                                    65.92%
                 70%
                 60%                                  50.52%
                 50%                                                             49.83%
    Percentage



                                            38.17%
                 40%
                                26.94%
                 30%
                                                                35.37%
                 20%   11.38%                27.27%   29.53%                 26.76%
                                 22.30%
                 10%
                 0%    8.74%
                       Dec-04   Dec-05     Dec-06     Dec-07    Dec-08       Dec-09

                                          City Bank    Peer Group

Source: UBPRs for City Bank.

Risk Management Practices

Weak risk management practices were also a factor in the deterioration of City Bank’s
financial condition. According to the Joint Guidance, history has demonstrated that real
estate markets can experience fairly rapid changes and an institution’s ability to withstand
difficult market conditions depends on the adequacy of its risk management practices and
capital levels. In its response to the 2008 examination, management acknowledged that
the bank’s declining condition was exacerbated by deficiencies cited in its lending risk
management practices, which, if more robust, may have been able to provide the bank
with an earlier warning of the magnitude of the deterioration in housing. In fact, as the
bank’s risk profile increased, examiners cautioned the bank about its exposure to adverse
economic conditions and identified a number of risk management practices that needed to
be strengthened, including the need for the bank to:

   Enhance industry concentration reports to include a more detailed breakout of each
    loan type.

   Improve monitoring and tracking of market conditions in the bank’s lending area to
    assess whether the bank’s CRE and ADC lending strategy continued to be appropriate
    in light of changes in market conditions.

   Monitor the borrower’s capacity to repay on an ongoing basis. In 2008, examiners
    stated that the loan policy approved by the bank and implemented by management did
    not provide sufficient guidance to establish clear and measurable criteria of the
    borrower’s overall financial condition and resources.

   Strengthen various credit administration practices such as credit write-ups and loan
    documentation. City Bank’s credit memoranda were brief and failed to adequately
    address the financial capacity of the borrower or guarantor to carry a construction

                                                7
    project or acquisition loan to term. Further, the documents lacked critical information
    such as project feasibility, which became increasingly critical when the real estate
    market deteriorated.

   Improve internal loan grading, including the need to have definitions that comply
    with regulatory definitions and the need to recognize loan deterioration in a timely
    manner.

   Implement portfolio stress testing/sensitivity analysis to analyze the potential effect of
    elevated loss rates on the CRE and ADC portfolios and the effect on the bank’s
    earnings and capital levels.

   Develop a contingency plan to reduce or mitigate concentrations in the event of
    adverse market conditions.

   Inspect OREO and establish guidelines for periodic inspections.

According to supervisory guidance related to ADC and CRE lending, management’s
ability to identify, measure, monitor, and control portfolio risk through effective
underwriting policies, systems, and internal controls is crucial to a sound ADC lending
program. The magnitude of the slump in credit and housing markets was a significant
factor in the rapid decline of the bank’s asset quality. However, risk control and risk
identification practices and underwriting were within the control of the individuals
governing the bank and the deficiencies in these processes contributed to the rise in asset
classifications.

Violations and Contraventions

City Bank also repeatedly ignored examiners’ recommendations to comply with key
regulatory requirements designed to ensure that institutions have adequate collateral
protection and are not over-exposed to an excessive level of risk. According to the
Examination Manual, it is important for a financial institution’s Board to ensure that bank
management is cognizant of applicable laws and regulations, develops a system to effect
and monitor compliance and, when violations do occur, makes corrections as quickly as
possible. According to examiners, City Bank did not demonstrate strength in this regard,
opting, to its own detriment, to do business its own way. Management’s response to the
2007 examination report was reflective of management’s attitude to supervisory
concerns. The CEO stated that the bank strove to be in compliance with regulations but
that a significant part of the issue was the lack of clarity in the regulations. Further,
management stood by the bank’s history and its underwriting policy and procedures,
which had not caused the bank to experience any significant losses or loan defaults.

The 2008 examination report stated the repetitive nature of the apparent violations and
contraventions was illustrative of management and the Board’s unwillingness to comply
with governing regulations and their cavalier attitude toward regulatory compliance.
Further, examiners reminded the bank that civil monetary penalties could be assessed for
the violation of any law or regulation. According to the 2008 examination report,

                                              8
apparent contraventions of Part 365 Real Estate Lending Standards, Appendix A,
Interagency Guidelines for Real Estate Lending Policies, had been cited in the last five
examination reports and was again a concern in the 2008 examination. These guidelines
are intended to assist institutions in the formulation and maintenance of real estate
lending policy that is appropriate to the size of the institution and the nature and scope of
its individual operations. One aspect of the guidelines establishes supervisory loan-to-
value (LTV) limits for loans secured by real estate. The bank’s policy was to advance up
to 80 percent of the appraised retail value for speculative 1-4 family construction projects
as opposed to using the regulatory threshold of 85 percent of discounted value, which
resulted in substantially more exposure to losses when the market declined. In addition,
the aggregate amount of all loans originated in excess of supervisory LTV limits should
not exceed 100 percent of Total Capital. Examiners found that City Bank exceeded this
limit in 2006, 2007, 2008, and 2010.

With regard to apparent violations of Part 323 of the FDIC Rules and Regulations,
Appraisals, and contravention of Interagency Appraisal and Evaluation Guidelines, the
bank did not, in some cases, obtain updated appraisals before making a loan or
transferring the asset to other real estate. In other cases, the methodology used for the
appraisal was inconsistent with requirements. Further, the bank had not implemented an
effective appraisal review program. The 2008 report stated that appraisal-related
violations and contraventions had been cited in three of the last five examinations and
were again identified during the examination. According to examiners, the bank’s
excessive levels of LTV exceptions and failure to comply with appraisal requirements
exposed the bank to higher losses during the economic downturn.

In 2008, the collective deficiencies found by examiners led them to conclude that City
Bank was in contravention of Part 364, Standards of Safety and Soundness, of the FDIC’s
Rules and Regulations, Appendix A, Interagency Guidelines Establishing Standards for
Safety and Soundness. These guidelines establish, among other things, operational and
managerial standards, including standards related to credit underwriting, asset growth,
and asset quality. Examiners also found that management had not implemented
appropriate safeguards regarding the bank’s compensation structure. In the 2010
examination, examiners also cited City Bank for an apparent violation of Part 359,
Golden Parachute and Indemnification Payments, even though the bank had been
reminded of the applicable requirements in December 2008.

Lastly, in 2007, 2008, and 2009, examiners cited City Bank for being in apparent
contravention of the Interagency Policy Statement on the Allowance for Loan and Lease
Losses (ALLL Policy Statement), which reiterates key concepts and requirements related
to generally accepted accounting principles and existing supervisory guidance for
maintaining and supporting an appropriate level for ALLL.6 The following summarizes
examiners’ concerns:


6
  Statement of Financial Accounting Standards (FAS) No. 5, Accounting for Contingencies, and FAS No.
114, Accounting by Creditors for Impairment of a Loan, as then in effect, provide accounting guidance for
loss contingencies on a pool basis and impairment of loans on an individual basis, respectively.

                                                    9
   In 2007, examiners had concerns with the bank’s loan review system, but the level of
    ALLL was considered appropriate given the risk profile of the loan portfolio.

   In 2008, examiners found that City Bank’s ALLL process was not supported by an
    appropriate ALLL policy and the ALLL was inadequate for the high-risk profile of
    the loan portfolio. Further, the documented ALLL analysis was overly dependent
    upon the institution’s historical loss experience without clear consideration of the
    changes in national, regional, and local economic conditions and developments; loan
    volume trends; delinquencies; restructurings; or concentrations. Examiners again had
    concerns with the effectiveness of the loan grading system.

   In 2009, examiners found that there were weaknesses in management’s process for
    determining the impairment portion of the ALLL and specifically noted that appraisal
    quality and internal control procedures needed improvement. During a 2009
    visitation, examiners concluded that City Bank’s loan loss reserve was underfunded
    due to these weaknesses and additional provisions of $8 million were recommended.
    Examiners determined that $19.5 million in additional provisions were needed at the
    February 2010 examination.


The FDIC’s Supervision of City Bank
Our review focused on FDIC and DFI supervisory oversight of City Bank between 2006
and 2010. The FDIC and DFI conducted timely and regular examinations of City Bank,
as required. City Bank was also subjected to periodic offsite monitoring. Prior to 2008,
the FDIC and DFI consistently concluded that the bank’s ADC risk exposure was
mitigated by strong Board and management oversight, strong earnings, and significant
capital. Further, although examiners identified various risk management practices that
needed to be strengthened, examiners did not consider identified weaknesses to be
significant in light of the bank’s sound financial condition and capital levels.
Accordingly, neither the FDIC nor DFI considered City Bank to be a cause for
supervisory concern even when the economy began to weaken in 2007.

However, the level of supervisory concern changed dramatically in 2008 when the bank’s
ADC concentrations, combined with deficient risk management practices and a downturn
in the real estate market, resulted in a dramatic rise in delinquent and nonperforming
assets and significant deterioration in the bank’s overall condition. Based on the 2008
examination findings, the FDIC and the DFI acted aggressively to downgrade the bank’s
composite and component ratings, issue a formal supervisory enforcement action, and
closely monitor City Bank’s condition. However, despite the increased supervisory
attention following that examination and City Bank’s efforts to address deficiencies, the
condition of the bank continued to decline and became critically deficient.

A lesson learned with respect to ADC concentrations is that early supervisory
intervention is prudent, even when an institution has significant capital and few classified
assets. In hindsight, a more forward-looking assessment of City Bank’s risk profile

                                             10
would likely have resulted in earlier downgrades and possibly led to the issuance of an
informal enforcement action in 2007. Such an approach would have reinforced
supervisory expectations, increased supervisory oversight, and required the Board to
commit to a plan and a timeline for implementing corrective actions before the
deterioration of economic conditions made corrective action more difficult to achieve.

The FDIC has taken a number of actions to increase supervisory attention to banks that
have risk profiles similar to City Bank, including instituting a training initiative on
forward-looking supervision and issuing additional supervisory guidance on CRE and
ADC concentrations, appraisals, and funds management.

Supervisory History

Between 2006 and 2010 the FDIC and DFI conducted four onsite safety and soundness
examinations, as required by the FDI Act.7 In addition, in 2008, the FDIC and DFI
conducted a joint visitation based on offsite analysis of City Bank’s financial data.
Table 2 summarizes City Bank’s examination history from 2006 to 2010, including the
supervisory ratings and enforcement actions taken.

Table 2: Examination History of City Bank, 2006 to 2010
                                                     Supervisory               Enforcement Action
    Examination      Examination
                                        Agency         Ratings
     Start Date       as of Date
                                                       (UFIRS)
08/21/2006           06/30/2006           State      111121/1          None
10/09/2007           06/30/2007           Joint      122121/2          None
12/29/2008           09/30/2008           Joint      454453/5*         C&D – Effective June 29, 2009
07/15/2009           06/30/2009           Joint      None              2009 C&D still in effect
Visitation
02/28/2010           12/31/2009           Joint      555545/5          2009 C&D still in effect
Source: Examination reports and enforcement actions for City Bank.
*As discussed below, City Bank was downgraded to a composite “3” rating prior to the start of this
examination based on offsite analysis.

City Bank was not flagged for review by the FDIC’s offsite monitoring system prior to
2007.8 As such, the FDIC’s offsite monitoring procedures generally consisted of
contacting the institution’s management as part of examination pre-planning efforts.
However, following the October 2007 examination, City Bank was subject to quarterly
offsite reviews because financial models used as part of the FDIC’s offsite monitoring
system indicated that City Bank was likely to be downgraded at the next examination.


7
  Section 337.12 of the FDIC Rules and Regulations, which implements section 10(d) of the FDI Act,
requires annual full-scope, onsite examinations of every state nonmember bank at least once during each
12-month period and allows for 18-month intervals for certain small institutions (total assets of less than
$500 million) if certain conditions are satisfied.
8
  The FDIC uses various offsite monitoring tools to help assess the financial condition of institutions.
Offsite reviews are performed for each bank that appears on the system-generated Offsite Review List.

                                                     11
As part of its quarterly offsite reviews, FDIC officials contacted bank officials to evaluate
the level of risk and risk trends. Although the reviews noted City Bank’s progressive
deterioration, the bank’s capital position was still probably one of the highest in the
country during this period. Nonetheless, before the start of the 2008 examination, the
FDIC processed an interim downgrade, assigning the bank a composite “3” rating based
on the results of its offsite review to reflect the bank’s current condition and substantial
exposure to ADC lending. Financial institutions assigned a “3” exhibit some degree of
supervisory concern, are generally less capable of withstanding business fluctuations, and
are more vulnerable to outside influences. The offsite review also resulted in examiners
formally designating City Bank as a “troubled” institution subject to closer regulatory
supervision.

In July 2009, City Bank was flagged as an institution with a potentially underfunded
ALLL, which prompted the July 2009 visitation. During the visitation, examiners found
that the level of problem assets remained extremely high, and as previously discussed in
this report, the ALLL was inadequate, liquidity risk was excessive, and capital was
deteriorating and inadequate to support the bank’s risk profile. Examiners recommended
that the Board and management continue ongoing efforts to improve City Bank’s
condition, controls, and risk profile and noted that outside capital was urgently needed.

Supervisory Response to Key Risks

City Bank received “1” and “2” composite ratings in 2006 and 2007, respectively,
indicating that the bank gave no cause for supervisory concern, and weaknesses identified
were considered moderate and well within the Board and management’s capabilities and
willingness to correct. Further, although examiners cited City Bank for repeat apparent
contraventions of FDIC LTV and appraisal policy statements and violations of appraisal
regulations, the bank’s lack of adherence was not judged to warrant heightened
supervision at that time. Supervisory attention increased dramatically in 2008 when the
severity of the economic downturn became apparent and the financial condition of the
bank significantly deteriorated.

2006 and 2007 Examinations

The 2006 and 2007 examination reports highlighted the risks associated with the bank’s
ADC lending and its increasing reliance on non-core funding sources. These
examination reports also made recommendations to strengthen key risk management
practices. In 2007, examiners downgraded City Bank’s composite rating from a “1” to
“2” to reflect the bank’s increasing risk exposure and the bank’s need to improve
compliance with regulations and policy statements specific to real estate lending.

Examiners considered City Bank’s risk profile to be buffered by the experience of the
management team, the bank’s financial performance, and the bank’s high capital levels.
According to the 2007 examination report, the financial performance of the bank had
been among the top 10 percent of the industry on a consistent basis, and capital levels
were maintained at levels sufficient to mitigate management’s risk tolerance. Further,


                                             12
management readily acknowledged that the concentrations warranted a high capital base.
Table 3 shows that City Bank’s capital ratios exceeded its peer group until 2009.

Table 3: City Bank’s Total Risk-Based Capital Ratio to Peer Group, 2005 to 2009
                                                     Tier 1 Risk-Based     Total Risk-Based
                      Tier 1 Leverage Capital              Capital              Capital
  Period Ending          Bank         Peer           Bank          Peer    Bank         Peer
 December 2005           21.90        8.88           21.69       11.78     22.95        12.95
 December 2006           18.55        8.69           18.58       10.75     19.58        11.97
 December 2007           17.44        8.73           17.62       10.68     18.57        11.83
 December 2008           10.72        8.41           11.61       10.41     12.88        11.70
 December 2009            1.80        8.33            2.32       11.18      3.57        12.53
 Source: UBPRs for City Bank.

With regard to the bank’s apparent contravention of Appendix A to Part 365, Real Estate
Lending Standards, the 2006 examination report noted that bank management had made
some changes in response to issues raised at prior examinations concerning the tracking
and reporting of supervisory LTV exceptions but remained in apparent contravention.
The 2007 examination report stated that compliance with regulations related to lending
needed improvement and was the basis for downgrading the Management and Asset
Quality component ratings and overall composite rating. As discussed later in the
Supervisory Lessons Learned section of this report, earlier downgrades may have been
prudent given the overall risk profile of the bank, irrespective of the bank’s financial
condition and capital levels.

2008 Examination

The December 2008 examination first identified the extent of rapid deterioration in City
Bank’s overall condition. Examiners stated that the bank’s excessive risk appetite,
coupled with deficient risk management practices, led to the poor asset quality that
threatened the viability of the bank. Adversely classified assets totaled 63 percent of total
assets. Examiners deemed management and Board oversight to be lax, noting that
management had failed to respond to early signs of market deterioration. Further, as
previously discussed in this report, examiners concluded that the number of apparent
violations and contraventions identified at this examination reflected poorly on
management and the board. Examiners also stated that while the bank’s business model
had demonstrated past profitability, the downturn in the real estate market had exposed
weaknesses in that model.

The bank’s deficient risk management practices, reliance on unsustainable funding
sources, and the gradual erosion of capital support were collectively found to create an
untenable risk profile. Accordingly, examiners downgraded the bank’s composite rating
to a “5”. As a result of the concerns identified in the December 2008 examination, a




                                                13
C&D was issued on June 29, 2009. The C&D required the bank to, among other things:

   Retain qualified management, including a chief executive officer and senior lending
    officer;

   Obtain an independent management study;

   Increase Board participation;

   Develop a capital plan, including projections for asset growth;

   Increase and maintain capital at minimum levels described in the Order;

   Maintain an adequate ALLL;

   Charge off all assets classified as Loss;

   Make no further advances to adversely classified relationships without prior
    regulatory approval;

   Revise and adopt adequate loan policies, including standards for concentrations and a
    plan to reduce ADC concentrations;

   Correct all violations and contraventions of interagency policy statements; and

   Reduce non-core funding sources, including brokered deposits.

2010 Examination

The February 2010 examination found that the overall condition of the bank had
continued to deteriorate and the bank’s viability was jeopardized. Asset quality was
found to be critically deficient due to an excessive level of nonperforming assets centered
in ADC. As discussed earlier in this report, the ALLL was underfunded by $19.5 million
due to losses and additional risk identified during the examination, which as discussed in
the PCA section of this report, resulted in the bank becoming classified as Critically
Undercapitalized. Board oversight was considered to be lax although management had
reduced the level of problem assets considerably since the prior examination. Examiners
found the management team lacked sufficient depth and a viable strategy to restore the
bank to satisfactory condition and that the bank still needed to among other things:
comply with all provisions of the C&D, increase capital to a satisfactory level,
reduce the level of adversely classified assets, restore the bank to profitability, and
correct apparent violations of law and contraventions of regulatory guidance and ensure
future compliance.

Further, the Chairman/CEO was found to be a dominant figure in the operations of the
bank, and decision-making at all levels of the organization was tightly held by the
Chairman/CEO. A management study done in response to a provision of the C&D

                                                14
recommended that the Chairman/CEO’s role be reduced to improve reporting to the
Board. In November 2009, the bank proposed and was granted permission by the FDIC
to appoint a new President/CEO to reduce the role of the current Chairman/CEO who had
been with the bank for 34 years. The Chairman/CEO indicated that he would resign from
the bank but intended to remain as Chairman for a transitional period. Despite
management’s efforts to raise capital, comply with the C&D, and implement the
recommendations made by examiners, the condition of the bank continued to deteriorate
and City Bank was closed by DFI on April 16, 2010.

Supervisory Lessons Learned

According to the Examination Manual, the quality of an institution’s management,
including its Board and executive officers, is perhaps the single most important element
in the successful operation of a bank. The Board has overall responsibility and authority
for formulating sound policies and objectives for the bank and for effectively supervising
the institution’s affairs. The Examination Manual further states that

        …to effectively prevent serious problems in an institution, the conditions and
        circumstances that may lead to problems must be identified and corrected early.
        Corrective action should be taken immediately upon identifying excessive risk
        taking…when corrective action is not taken until conditions have deteriorated it is
        often too late to avoid failure. Moral suasion and informal agreements are
        normally sufficient where the unacceptable risk-taking is identified early, but
        formal action must be considered, even when an institution is rated 1 or 2, if
        circumstances warrant.

In hindsight, greater emphasis on management practices and more aggressive supervisory
action, including earlier downgrades of the Management, Asset Quality, and Liquidity
component ratings and the composite rating, and/or pursuing an informal supervisory
enforcement action9 sooner may have been prudent taking into consideration City Bank’s
risk exposure in 2007, as evidenced by:

   increasing ADC concentrations,

   a funding strategy increasingly reliant on non-core funding sources,

   deficient risk management practices, and

   disregard of key regulations and policies.

A more proactive supervisory approach in 2007 would have reinforced supervisory
expectations, increased supervisory oversight, and required the Board to commit to a plan
and a timeline for implementing corrective actions at a critical time. In light of City
Bank’s financial performance and condition at that time, we recognize that the FDIC

9
 Options for informal supervisory actions include a Bank Board Resolution or Memorandum of
Understanding.

                                                 15
would have faced considerable challenges convincing the Board and management that
their strategy and practices were creating unwarranted risk that needed to be constrained
and mitigated.

The FDIC has taken a number of actions to increase supervisory attention to banks that
have risk profiles similar to City Bank. Of note, in March 2010, the FDIC completed a
training initiative for its entire supervisory workforce that emphasizes the need to assess a
bank’s risk profile using forward-looking supervision. The FDIC has also issued updated
guidance to examiners regarding (1) CRE loan examination procedures in view of more
challenging market conditions, particularly in ADC lending, and (2) supervisory
expectations for FDIC-supervised institutions to update real estate appraisals and
evaluations. In March 2010, the banking agencies also issued guidance, Policy Statement
on Funding and Liquidity Risk Management, which reiterates the importance of effective
risk management.

Implementation of PCA

Section 38, Prompt Corrective Action, of the FDI Act establishes a framework of
mandatory and discretionary supervisory actions pertaining to all institutions. The
section requires regulators to take progressively more severe action, known as “prompt
corrective actions,” as an institution’s capital levels deteriorate. The purpose of PCA is
to resolve problems of insured depository institutions at the least possible long-term cost
to the DIF. Part 325, Capital Maintenance, of the FDIC Rules and Regulations defines
the capital measures used in determining the supervisory actions that will be taken
pursuant to section 38 for FDIC-supervised institutions. Part 325 also establishes
procedures for the submission and review of capital restoration plans and for the issuance
of directives and orders pursuant to section 38. The FDIC is required to closely monitor
the institution’s compliance with its capital restoration plan, mandatory restrictions
defined under section 38(e), and discretionary safeguards imposed by the FDIC (if any)
to determine if the purposes of PCA are being achieved.

Based on supervisory actions taken with respect to City Bank, the FDIC properly
implemented applicable PCA provisions of section 38. Table 4 illustrates City Bank’s
capital levels relative to the PCA thresholds for Well Capitalized Institutions.




                                             16
Table 4: City Bank’s Capital Levels Relative to PCA Thresholds for Well
Capitalized Institutions
                                     Tier 1       Total
                         Tier 1      Risk-        Risk-               Capital
   Period Ending        Leverage     Based        Based            Classification
     Well Capitalized
       Threshold            5% or more       6% or more       10% or more
       June 2006                20.97            20.54            21.65               Well Capitalized
       June 2007                18.57            19.08            20.01               Well Capitalized
    September 2008              12.18            12.41            13.73               Well Capitalized
    September 2009              6.19             7.64             8.95            Adequately Capitalized*
    December 2009                3.04             4.13            5.38         Significantly Undercapitalized
     February 2010              1.36             1.86             3.12          Critically Undercapitalized
Source: UBPRs and examination reports for City Bank and Part 325 of the FDIC Rules and Regulations.
*Once City Bank became subject to a C&D that addressed the capital level in 2009, by definition, the bank
became Adequately Capitalized.

Although City Bank was considered Well Capitalized under PCA standards based on its
capital levels at the 2008 examination, the examination report advised management that
the bank’s capital levels were deficient taking into consideration the bank’s weakened
financial condition and high-risk profile. Examiners also reminded management that
under FDIC policy, capital adequacy for safety and soundness purposes may differ
significantly from PCA capital levels. Further, regardless of its numerical capital levels,
examiners noted that City Bank would no longer be Well Capitalized under Part 325, by
definition, once the bank was subject to a formal enforcement action. The FDIC also sent
a letter to City Bank in January 2009 reiterating that, given the bank’s pronounced
deterioration, a formal corrective program was likely, which might include the
requirements and restrictions associated with brokered deposits and interest rates paid on
deposits pursuant to Section 337.6 of FDIC Rules and Regulations. Accordingly, the
letter advised the bank that, effectively immediately, City Bank should not accept, renew,
or roll over any brokered deposits, and any such activities would be viewed unfavorably
by the FDIC.

As discussed earlier, the FDIC issued a C&D effective June 29, 2009, that included a
capital provision requiring City Bank to within 90 days of the effective date of the order:
(1) maintain Tier 1 Capital in such an amount as to equal or exceed 12 percent of the
bank’s total assets and (2) develop and adopt a plan to meet and thereafter maintain the
minimum risk-based capital requirements. With regard to the capital plan required by the
C&D, management met with the FDIC in August 2009 to discuss its plan to raise capital,
and in October 2009, the bank submitted its capital plan to the FDIC and DFI. The FDIC
advised management that its capital plan did not address regulatory concerns and in the
2010 examination report noted that prospects for raising sufficient capital within an
acceptable timeframe appeared unlikely given the bank’s troubled condition.

On February 17, 2010, the FDIC notified City Bank that it was Significantly
Undercapitalized based on its December 31, 2009 Call Report and it was required to
submit a capital restoration plan by April 2, 2010. The PCA notification letter outlined
the mandatory and discretionary actions permitted by the FDIC pursuant to Part 325.

                                                    17
Prior to the submission of the capital restoration plan, given the bank’s critically low
capital levels due to the further deterioration in the bank’s financial condition and the
anticipation of an unacceptable capital restoration plan, the FDIC decided to issue a PCA
Directive on March 10, 2010. The directive required the bank to raise capital or accept
an offer to sell the bank within 30 days; refrain from accepting or renewing brokered
deposits; restrict interest rates to comply with Section 337.6; restrict growth; refrain from
making capital distributions or dividend payments; refrain from increasing compensation;
and refrain from branching. Finally, on April 14, 2010, the FDIC notified City Bank that
its capital category was Critically Undercapitalized based on the February 2010
examination.

The bank had elected not to apply for funds under the Troubled Asset Relief Program.
Ultimately, the bank was unsuccessful in its efforts to raise capital and was closed by DFI
on April 16, 2010.


Corporation Comments

After we issued our draft report, management provided additional information for our
consideration, and we revised our report to reflect this information, as appropriate. On
November 12, 2010, the Director, DSC, provided a written response to the draft report.
That response is provided in its entirety as Appendix 4 of this report. DSC reiterated the
OIG’s conclusions regarding the causes of City Bank’s failure. With regard to our
assessment of the FDIC’s supervision of City Bank, DSC’s response discussed the
number of examinations conducted between 2006 and 2010 described in our report.
Further, DSC’s response reiterated that City Bank’s loan portfolio had deteriorated to a
level that raised significant supervisory concern at the December 2008 joint examination,
resulting in a composite “5” rating and the issuance of a C&D in June 2009. In the
February 2010 examination, the FDIC and DFI determined that City Bank was no longer
viable without an immediate capital infusion, which failed to materialize. DSC also
indicated that it recognizes that strong supervisory attention is necessary for institutions
with high CRE and ADC concentrations, such as City Bank, and referenced guidance that
the division has issued to remind examiners to take appropriate action when risks
associated with those concentrations are imprudently management. DSC also stated that
supervisory guidance has been issued to financial institutions to re-emphasize the
importance of robust credit risk-management practices for institutions with concentrated
CRE exposures.




                                             18
                                                                               Appendix 1

                     Objectives, Scope, and Methodology

Objectives

We performed this audit in accordance with section 38(k) of the FDI Act, as amended by
the Financial Reform Act, which provides, in general, that if the Deposit Insurance Fund
incurs a material loss with respect to an insured depository institution, the Inspector
General of the appropriate federal banking agency shall prepare a report to that agency
reviewing the agency’s supervision of the institution. The Financial Reform Act amends
section 38(k) of the FDI Act by increasing the MLR threshold from $25 million to $200
million for losses that occur for the period January 1, 2010 through December 31, 2011.
The FDI Act requires that the report be completed within 6 months after it becomes
apparent that a material loss has been incurred.

Our audit objectives were to (1) determine the causes of the financial institution’s failure
and resulting material loss to the DIF and (2) evaluate the FDIC’s supervision of the
institution, including implementation of the PCA provisions of section 38.

We conducted this performance audit from June 2010 to October 2010 in accordance
with generally accepted government auditing standards. Those standards require that we
plan and perform the audit to obtain sufficient, appropriate evidence to provide a
reasonable basis for our findings and conclusions based on our audit objectives. We
believe that the evidence obtained provides a reasonable basis for our findings and
conclusions based on our audit objectives.


Scope and Methodology

The scope of this audit included an analysis of City Bank’s operations from 2006 until its
failure on April 16, 2010. Our review also entailed an evaluation of the regulatory
supervision of the institution over the same period.

To achieve the objectives, we performed the following procedures and techniques:

        Analyzed examination reports prepared by the FDIC and the DFI examiners from
         2006 to 2010.

        Reviewed the following:

              Bank data and correspondence maintained at DSC’s San Francisco Regional
               Office and Seattle Field Office.

              Reports prepared by the Division of Resolutions and Receiverships (DRR)
               and DSC relating to the bank’s closure.

              Pertinent DSC policies and procedures and various banking laws and
               regulations.


                                             19
                                                                                 Appendix 1

                      Objectives, Scope, and Methodology

        Interviewed the following FDIC officials:

              DSC management in Washington, D.C., and the San Francisco Regional
               Office and Seattle Field Office.

              DRR officials at the Irvine Field Office.

              FDIC examiners from the DSC San Francisco Regional Office and Seattle
               Field Office, who participated in examinations or reviews of examinations of
               City Bank.

        Interviewed officials from the DFI to discuss the historical perspective of the
         institution, its examinations, and other activities regarding the state's supervision
         of the bank.


Internal Control, Reliance on Computer-processed Information,
Performance Measurement, and Compliance with Laws and Regulations

Consistent with the audit objectives, we did not assess DSC’s overall internal control or
management control structure. We relied on information in DSC systems, reports,
examination reports, and interviews of examiners to understand City Bank’s management
controls pertaining to causes of failure and material loss as discussed in the body of this
report.

We obtained data from various FDIC systems but determined that information system
controls were not significant to the audit objectives and, therefore, did not evaluate the
effectiveness of information system controls. We relied on our analysis of information
from various sources, including examination reports, correspondence files, and
testimonial evidence to corroborate data obtained from systems that was used to support
our audit conclusions.

The Government Performance and Results Act of 1993 (the Results Act) directs
Executive Branch agencies to develop a customer-focused strategic plan, align agency
programs and activities with concrete missions and goals, and prepare and report on
annual performance plans. For this material loss review, we did not assess the strengths
and weaknesses of DSC’s annual performance plan in meeting the requirements of the
Results Act because such an assessment is not part of the audit objectives. DSC’s
compliance with the Results Act is reviewed in program audits of DSC operations.

Regarding compliance with laws and regulations, we performed tests to determine
whether the FDIC had complied with provisions of PCA and limited tests to determine
compliance with certain aspects of the FDI Act and the FDIC’s Rules and Regulations.
The results of our tests were discussed, where appropriate, in the report. Additionally, we



                                               20
                                                                              Appendix 1

                    Objectives, Scope, and Methodology

assessed the risk of fraud and abuse related to our objectives in the course of evaluating
audit evidence.

Related Coverage of Financial Institution Failures

On May 1, 2009, the OIG issued an internal memorandum that outlined major causes,
trends, and common characteristics of FDIC-supervised financial institution failures that
had resulted in a material loss to the DIF. The memorandum also indicated that the OIG
planned to provide more comprehensive coverage of those issues and make related
recommendations, when appropriate. Since May 1, 2009, the OIG has issued additional
MLR reports related to failures of FDIC-supervised institutions and these reports can be
found at www.fdicig.gov. In June 2010, the OIG initiated an audit, the objectives of
which are to (1) determine the actions that the FDIC has taken to enhance its supervision
program since May 2009, including those specifically in response to the May 2009
memorandum, and (2) identify trends and issues that have emerged from subsequent
MLRs.

In addition, with respect to more comprehensive coverage of specific issues, in
May 2010, the OIG initiated an evaluation of the role and federal regulators’ use of the
Prompt Regulatory Action provisions of the FDI Act (section 38, PCA and section 39,
Standards for Safety and Soundness) in the banking crisis.




                                             21
                                                                                 Appendix 2

                               Glossary of Terms


Term                                               Definition
Acquisition,     ADC loans are a component of Commercial Real Estate that provide
Development,     funding for acquiring and developing land for future construction, and that
and              provide interim financing for residential or commercial structures.
Construction
(ADC) Loans
Adversely        Assets subject to criticism and/or comment in an examination report.
Classified       Adversely classified assets are allocated on the basis of risk (lowest to
Assets           highest) into three categories: Substandard, Doubtful, and Loss.

Allowance for    The ALLL is an estimate of uncollectible amounts that is used to reduce the
Loan and Lease   book value of loans and leases to the amount that is expected to be
Losses (ALLL)    collected. It is established in recognition that some loans in the institution’s
                 overall loan and lease portfolio will not be repaid. Boards of directors are
                 responsible for ensuring that their institutions have controls in place to
                 consistently determine the allowance in accordance with the institutions’
                 stated policies and procedures, generally accepted accounting principles,
                 and supervisory guidance.

Bank Board       A Bank Board Resolution is an informal commitment adopted by a financial
Resolution       institution’s Board of Directors (often at the request of the FDIC) directing
(BBR)            the institution’s personnel to take corrective action regarding specific noted
                 deficiencies. A BBR may also be used as a tool to strengthen and monitor
                 the institution’s progress with regard to a particular component rating or
                 activity.
Call Report      Reports of Condition and Income, often referred to as Call Reports, include
                 basic financial data for insured commercial banks in the form of a balance
                 sheet, an income statement, and supporting schedules. According to the
                 Federal Financial Institutions Examination Council’s (FFIEC) instructions
                 for preparing Call Reports, national banks, state member banks, and insured
                 nonmember banks are required to submit a Call Report to the FFIEC’s
                 Central Data Repository (an Internet-based system used for data collection)
                 as of the close of business on the last day of each calendar quarter.

Cease and        A C&D is a formal enforcement action issued by a financial institution
Desist Order     regulator pursuant to 12 U.S.C. section 1818 to a bank or affiliated party to
(C&D)            stop an unsafe or unsound practice or a violation of laws and regulations. A
                 C&D may be terminated when the bank’s condition has significantly
                 improved and the action is no longer needed or the bank has materially
                 complied with its terms.




                                            22
                                                                                Appendix 2

                             Glossary of Terms


Commercial      CRE loans are land development and construction loans (including 1-to-4
Real Estate     family residential and commercial construction loans) and other land loans.
(CRE) Loans     CRE loans also include loans secured by multifamily property and nonfarm
                nonresidential property, where the primary source of repayment is derived
                from rental income associated with the property or the proceeds of the sale,
                refinancing, or permanent financing of the property.

Concentration   A concentration is a significantly large volume of economically related
                assets that an institution has advanced or committed to a certain industry,
                person, entity, or affiliated group. These assets may, in the aggregate,
                present a substantial risk to the safety and soundness of the institution.

FDIC’s          The FDIC’s supervision program promotes the safety and soundness of
Supervision     FDIC-supervised institutions, protects consumers’ rights, and promotes
Program         community investment initiatives by FDIC-supervised institutions. The
                FDIC’s Division of Supervision and Consumer Protection (DSC) (1)
                performs examinations of FDIC-supervised institutions to assess their
                overall financial condition, management policies and practices (including
                internal control systems), and compliance with applicable laws and
                regulations and (2) issues related guidance to institutions and examiners.

Federal Home    FHLBs provide long- and short-term advances (loans) to their members.
Loan Bank       Advances are primarily collateralized by residential mortgage loans, and
(FHLB)          government and agency securities. Community financial institutions may
                pledge small business, small farm, and small agri-business loans as
                collateral for advances. Advances are priced at a small spread over
                comparable U.S. Department of the Treasury obligations.

Financial       A financial entity engaged in a broad range of banking-related activities,
Holding         created by the Gramm-Leach-Bliley Act of 1999. These activities include:
Company         insurance underwriting, securities dealing and underwriting, financial and
                investment advisory services, merchant banking, issuing or selling
                securitized interests in bank-eligible assets, and generally engaging in any
                non-banking activity authorized by the Bank Holding Company Act. The
                Federal Reserve Board is responsible for supervising the financial condition
                and activities of financial holding companies.

Loan-to-Value   A ratio for a single loan and property calculated by dividing the total loan
                amount at origination by the market value of the property securing the
                credit plus any readily marketable collateral or other acceptable collateral.

Material Loss   As defined by section 38(k)(2)(B) of the FDI Act, and as amended by the
                Dodd-Frank Wall Street Reform and Consumer Protection Act, for the
                period beginning January 1, 2010 and ending December 31, 2011, a
                material loss is defined as any estimated loss in excess of $200 million.




                                           23
                                                                                 Appendix 2

                              Glossary of Terms


Memorandum       A Memorandum of Understanding is an informal agreement between the
of               institution and the FDIC, which is signed by both parties. The State
Understanding    Authority may also be party to the agreement. MOUs are designed to
(MOU)            address and correct identified weaknesses in an institution’s condition.

Nonaccrual       The status of an asset, often a loan, which is not earning the contractual rate
Status           of interest in the loan agreement, due to financial difficulties of the
                 borrower. Typically, interest accruals have been suspended because full
                 collection of principal is in doubt, or interest payments have not been made
                 for a sustained period of time. Loans with principal and interest unpaid for
                 at least 90 days are generally considered to be in a nonaccrual status.

Offsite Review   The FDIC’s Offsite Review Program is designed to identify emerging
Program          supervisory concerns and potential problems so that supervisory strategies
                 can be adjusted appropriately. Offsite reviews are performed quarterly for
                 each bank that appears on the Offsite Review List. Regional management is
                 responsible for implementing procedures to ensure that Offsite Review
                 findings are factored into examination schedules and other supervisory
                 activities.

Peer Group       Institutions are assigned to 1 of 15 peer groups based on asset size, number
                 of branches, and whether the institution is located in a metropolitan or non-
                 metropolitan area.

Problem Bank     A problem bank memorandum documents the FDIC’s concerns with an
Memorandum       institution and the corrective action in place or to be implemented and is
                 also used to effect interim rating changes on the FDIC’s systems.

Prompt           The purpose of PCA is to resolve the problems of insured depository
Corrective       institutions at the least possible long-term cost to the Deposit Insurance
Action (PCA)     Fund. Part 325, subpart B, of the FDIC Rules and Regulations, 12 Code of
                 Federal Regulations, section 325.101, et. seq., implements section 38,
                 Prompt Corrective Action, of the FDI Act, 12 United States Code section
                 1831(o), by establishing a framework for determining capital adequacy and
                 taking supervisory actions against depository institutions that are in an
                 unsafe or unsound condition. The following terms are used to describe
                 capital adequacy: (1) Well Capitalized, (2) Adequately Capitalized,
                 (3) Undercapitalized, (4) Significantly Undercapitalized, and (5) Critically
                 Undercapitalized.

                 A PCA Directive is a formal enforcement action seeking corrective action
                 or compliance with the PCA statute with respect to an institution that falls
                 within any of the three categories of undercapitalized institutions.

Risk-Based       A “supplemental” capital standard under Part 325 of the FDIC Rules and
Capital          Regulations. Under the risk-based framework, a bank’s qualifying total
                 capital base consists of two types of capital elements, “core capital” (Tier 1)
                 and “supplementary capital” (Tier 2).


                                            24
                                                                                  Appendix 2

                               Glossary of Terms

Substandard      One of three types of classifications used by examiners to describe
                 adversely classified assets. The term is generally used to describe an asset
                 that is inadequately protected by the current sound worth and paying
                 capacity of the obligor or of the collateral pledged, if any. Substandard
                 assets have a well-defined weakness or weaknesses that jeopardize the
                 liquidation of the debt. Substandard assets are characterized by the distinct
                 possibility that the institution will sustain some loss if the deficiencies are
                 not corrected.

Tier 1 (Core)    Defined in Part 325 of the FDIC Rules and Regulations, 12 C.F.R. section
Capital          325.2(v), as
                 The sum of:
                 • Common stockholder’s equity (common stock and related surplus,
                 undivided profits, disclosed capital reserves, foreign currency translation
                 adjustments, less net unrealized losses on available-for-sale securities with
                 readily determinable market values);
                 • Non-cumulative perpetual preferred stock; and
                 • Minority interest in consolidated subsidiaries;
                 Minus:
                 • Certain intangible assets;
                 • Identified losses;
                 • Investments in securities subsidiaries subject to section 337.4; and
                 • Deferred tax assets in excess of the limit set forth in section 325.5(g).

Troubled Asset   TARP is a program of the United States Department of the Treasury to
Relief Program   purchase assets and equity from financial institutions to strengthen the
(TARP)           financial sector.

Uniform Bank     The UBPR is an individual analysis of financial institution financial data
Performance      and ratios that includes extensive comparisons to peer group performance.
Report (UBPR)    The report is produced by the Federal Financial Institutions Examination
                 Council for the use of banking supervisors, bankers, and the general public
                 and is produced quarterly from Call Report data submitted by banks.

Uniform          Financial institution regulators and examiners use the Uniform Financial
Financial        Institutions Rating System (UFIRS) to evaluate a bank’s performance in six
Institutions     components represented by the CAMELS acronym: Capital adequacy,
Rating System    Asset quality, Management practices, Earnings performance, Liquidity
                 position, and Sensitivity to market risk. Each component, and an overall
(UFIRS)
                 composite score, is assigned a rating of 1 through 5, with 1 having the least
                 regulatory concern and 5 having the greatest concern.




                                            25
                                                                       Appendix 3

                               Acronyms

ADC      Acquisition, Development, and Construction

ALLL     Allowance for Loan and Lease Losses

C&D      Cease and Desist Order

CAMELS   Capital, Asset Quality, Management, Earnings, Liquidity and Sensitivity to
         Market Risk

CEO      Chief Executive Officer

CRE      Commercial Real Estate

DIF      Deposit Insurance Fund

DFI      Washington State Department of Financial Institutions

DRR      Division of Resolutions and Receiverships

DSC      Division of Supervision and Consumer Protection

FDI      Federal Deposit Insurance

FFIEC    Federal Financial Institutions Examination Council

FHLB     Federal Home Loan Bank

FIL      Financial Institution Letter

LTV      Loan-to-Value

OIG      Office of Inspector General

OREO     Other Real Estate Owned




                                        26
                                                       Appendix 3

                            Acronyms


PCA     Prompt Corrective Action

TARP    Troubled Asset Relief Program

UBPR    Uniform Bank Performance Report

UFIRS   Uniform Financial Institutions Rating System




                                   27
                                                                                       Appendix 4

                                    Corporation Comments




Federal Deposit Insurance Corporation
  550 17th Street NW, Washington, D.C. 20429-9990               Division of Supervision and Consumer Protection

                                                                        November 10, 2010
TO:              Stephen Beard
                 Assistant Inspector General for Material Loss Reviews

                 /Signed/
FROM:            Sandra L. Thompson
                 Director

SUBJECT:         FDIC Response to the Draft Audit Report Entitled, Material Loss Review of City
                 Bank, Lynnwood, Washington (Assignment No. 2010-059)

Pursuant to Section 38(k) of the Federal Deposit Insurance Act, and as amended by the Dodd-
Frank Wall Street Reform and Consumer Protection Act, the Federal Deposit Insurance
Corporation’s Office of Inspector General (OIG) conducted a material loss review of City Bank,
Lynnwood, Washington (City Bank), which failed on April 16, 2010. This memorandum is the
response of the Division of Supervision and Consumer Protection (DSC) to the OIG’s Draft
Report (Report) received on October 18, 2010.

City Bank failed primarily because of the Board’s and management’s decision to concentrate the
loan portfolio in acquisition, development and construction (ADC) loans, and its failure to
implement prudent risk management practices necessary to monitor and manage its loan
portfolio. City Bank continued to originate ADC loans during 2008 and 2009 while its real
estate markets were weakening which led to significant loan-related losses, poor earnings, and
erosion of capital.

From 2006 through April 2010, the FDIC and the Washington State Department of Financial
Institutions (DFI) jointly and separately conducted four full-scope examinations and one
visitation. At the December 2008 joint examination, City Bank’s loan portfolio had deteriorated
to a level that raised significant regulatory concern. City Bank’s deficient management practices
and its reliance on unsustainable non-core funding sources posed considerable risk, resulting in a
composite “5” rating and a Cease and Desist order in June 2009. Based on the results of the
February 2010 examination, the FDIC and DFI determined that City Bank was no longer viable
without an immediate capital infusion which failed to materialize.

We recognize that strong supervisory attention is necessary for institutions with high commercial
real estate and ADC concentrations, such as City Bank, and we have issued updated guidance
reminding examiners to take appropriate action when those risks are imprudently managed. DSC
issued a Financial Institution Letter to banks on Managing Commercial Real Estate
Concentrations in a Challenging Environment that re-emphasizes the importance of robust credit
risk-management practices for institutions with concentrated CRE exposures.

Thank you for the opportunity to review and comment on the Report.




                                                    28
